RECORD NUMBER: %Q-JH&I
United States Supreme Court
JAMES DENNIS,
Petitioner,

(m

-V.COMMONWEALTH OF VIRGINIA,
Respondent
PETITION FOR CERTIORARI FROM JUDGMENT
OF THE VIRGINIA SUPREME COURT
PETITION FOR CERTIORARI
JAMES DENNIS, Pro Se
SFCC 1397669
3500 WOODS WAY,
STATE FARM, VA 23160

FILED
APR 0 2 'tm
OFFICE OF THE CLERK
cmpRFME COURT, U.S.

PETITION FOR CERTIORARI

RECEIVED
APR - 6 2021
OFFICE OF THE CLERK
SUPREME COURT UR

Questions Presented for Review
A.

B.

C.
D.

Does any Court have the authority to
extinguish a defendant’s due process rights
via the Fifth and Fourteenth Amendment
by allowing the prosecutor to proffer false
evidence?
Does a Virginia Court have the authority to
violate the Confrontation Clause of the
Constitution by allowing any hearsay
testimony?
Can a Virginia Court subject a defendant to
cruel and unusual punishment based on an
erroneous proffer by the prosecution?
Does a Virginia Court have the authority to
extinguish a defendant’s post commitment
First Amendment Rights?

1

PETITION FOR CERTIORARI

List of All Parties to the Proceeding
All parties are as listed in the caption hereof. James
Dennis is an individual for which no corporate
disclosure statement is required by Rule 29.6.

n

PETITION FOR CERTIORARI

TABLE OF CONTENTS

Page

Questions Presented for Review
1
List of All Parties to the Proceeding
n
I.
Citations of the Official and Unofficial
Reports of the Opinions and Orders Entered
in this Case by Courts
1
II. Statement of the Basis of Appellate
Jurisdiction
2
III. Constitutional Provisions and Statutes
2
Involved in the Case
IV. Statement of the Case
4
4
A. Procedural Posture
B. Statement of Facts
7
V. Argument
14
VI. Overall Conclusion
59

App. A Order Denying Appeal
Court of Appeals

App. A 1-30

App. B Order Denying Appeal
VA Supreme Court

App. B 1-1

App. C Petition for Appeal
Court of Appeals

App. C 1-19

App. D Brief in Opposition to
Petition for Appeal

App. D 1-8

App. E Supplemental Appeal Brief

App. E 1-52

App. F Brief in Opposition to
Supplemental Petition for
Appeal

App. F 1-40
in

PETITION FOR CERTIORARI

App. G Petition for Appeal
Supreme Court

App. G 1-61

App. H Supreme Court Reply Brief App. H 1-24
App. I Winchester Transcripts

App. I 1-23

App. J Probation Violation
Transcripts

App. J 1-89

v

PETITION FOR CERTIORARI

TABLE OF CASES
Page
Cases
Ashcroft v. Free Speech Coal
3535 U.S. 234 (2002)
Atkins v. Virginia

57

536 U.S. 304, 311, 122 S. Ct. 2242, 2246, 153
L. Ed. 2d 335, 343 (2002)
Berger v. United States
295 U.S. 78
Coker v. Georgia
433 U.S. 584, 592 (1977)
Crawford v. Jackson
323 F.3d 123 (D.C. Cir. 2003)
Curtis v. Chester
626 F.3d 540 (10th Cir. 2010
Edwards v. Whitlock
57 Va. Cir. 337 (2002)
Estelle v. Gamble
429 U.S. 97, 103 (1976)
Faziliv. Commonwealth
71 Va. App. 239 (2019)
Henderson v. Commonwealth
283 Va. 318 (2013)
In re Kemmler
136 U.S. 436 (1890)
Gagnon v. Scarpelli
411 U.S. 778 (1973)
Gregg v. Georgia
428 U.S. 153, 171 (1976)
Martin v. Ohio
480 U.S. (1987)
Morrissey v. Brewer
408 U.S. 471 (1972)
vi

PETITION FOR CERTIORARI

51
15-18
50
42
42
51
51
58

41, 43, 39
50
40
50, 51
23
40, 41

Packingham v. North Carolina
137 S. Ct. (2017)
55-58
Rhodes v. Chapman
452 U.S. 337, 345-46, 101 S. Ct. 2392,
2398-99 (1981)
51
Robinson v. California
370 U.S. 660, 666, 8 L.Ed.2d 758, 82 S. Ct.
1417 (1962)
52
Russo v. Commonwealth
207 Va. 251 (1966)
26
United States v. Jones
299 F.3d 103 (2d Cir. 2002)
42
United States v. Kelley
446 F.3d 688 (7th Cir. 2006)
42
United States v. Lloyd
566 F.3d 341 (3d Cir. 2009)
42, 43
Ward v. Rock Against Racism
491 U.S. 781 (1989)
56
Weems v. United States
217 U.S. 349, 30 S. Ct. 544 (1910)
51, 52
Wilkerson v. Utah
99 U.S. 130 (1879)
50
Constitution
First Amendment
Fifth Amendment
Eighth Amendment
Fourteenth Amendment

passim
passim
passim
passim

Statutes
Va. Code § 18.2-347
Va. Code § 18.2-357.1

4, 5, 53
32

Court Rules
Virginia Supreme Court Rule 5^25

Vll

PETITION FOR CERTIORARI

59

I.

Citations of the Official and Unofficial Reports

of the Opinions and Orders Entered in this Case bv
Courts
On or about January 15, 2019 Dennis pled no
contest to two misdemeanor charges, keeping a
bawdy place, pursuant to Va. Code § 18.2-347.
On or about February 6, 2019 Dennis was
found guilty of a probation violation and sentenced to
the revocation of five years of a suspended sentence
for that violation from a total of 21 years and 138
months of suspended time.
On March 9, 2020 the Virginia Court of
Appeals denied Dennis’ Petition for Appeal.
Dennis timely noticed his appeal to the Order
of the Virginia Court of Appeals. The Virginia Court
of Appeals entered its Order finally dismissing the
Petition for Appeal on March 9, 2019.
The Virginia Supreme Court entered its Order

finally dismissing the Petition for Appeal on March
1, 2021.

II.

Statement of the Basis of Appellate

Jurisdiction
The Virginia Supreme Court entered its
Judgment on February 25, 2020.
This Court has appellate jurisdiction in this
appeal pursuant to 28 U.S.C. § 1257.

III.

Constitutional Provisions and Statutes

Involved in the Case
The First, Fifth, Eighth and Fourteenth
Amendments to the United States Constitution are
involved in this case.
The First Amendment to the United States
Constitution provides:
Congress shall make no law respecting
an establishment of religion, or
Petition for Certiorari

Page 2

prohibiting the free exercise thereof; or
abridging the freedom of speech, or of
the press; or the right of the people
peaceably to assemble, and to petition
the government for a redress of
grievances.
The Fifth Amendment to the United States
Constitution provides in pertinent part:
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment
of a Grand Jury, except in cases arising
in the land or naval forces, or in the
Militia, when in actual service in time of
War or public danger.
The Eighth Amendment to the United States
Constitution provides:
Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and
unusual punishments inflicted.
The Fourteenth Amendment to the United
States Constitution provides in pertinent part:
No state shall make or enforce any law
which shall abridge the privileges or
immunities of citizens of the United
States! nor shall any state deprive any
person of life, liberty, or property,
Petition for Certiorari

Page 3

without due process of law; nor deny to
any person within its jurisdiction the
equal protection of the laws ...
Dennis was charged with a set of probation
violations based on a 2008 conviction pursuant to Va.
Code §18.2-347, which is involved in this case.

IV.

Statement of the Case
A. Procedural Posture
On July 25, 2008, Dennis entered Alford pleas

to the Albemarle County Circuit Court for single
counts of sexual battery, carnal knowledge, and
computer solicitation. In addition, Dennis entered
guilty pleas to each of 20 counts of possession of child
pornography with the Circuit Court.
On November 12, 2008, Dennis was sentenced
by the Albemarle County Circuit Court to an active
sentence of eleven (ll) years in prison with an

Petition for Certiorari

Page 4

additional 21 years plus 138 months of suspended
time.
Dennis was released from incarceration for the
2008 sentences on or about August 1, 2017.
On or about June 23, 2018 Dennis was
arrested on charges of rape and abduction by force.
Each of those charges was subsequently dismissed
via orders of Nolle Prossequi after Dennis
subpoenaed ankle monitoring records that proved his
accuser’s accusations false. Dennis was
subsequently indicted on two counts of sex
trafficking and two counts of pandering. Pursuant to
a plea agreement, Dennis entered two Alford pleas to
residing in a bawdy place in violation of Va. Code
18.2-347 in the Circuit Court for the City of
Winchester. Remaining charges were dismissed via
orders of Nolle Prossequi. Dennis was sentenced to
12 months for each of the charges for which Alford

Petition for Certiorari

Page 5

pleas were entered with all of the sentences
suspended.
On April 12, 2019, Dennis appeared before the
Albemarle County Circuit Court. He was charged
with set of probation violations based upon the two
misdemeanor counts for which he entered Alford
pleas in the Circuit Court for the City of Winchester.
Pursuant to the probation violation hearing,
Albemarle County Circuit Court revoked five (5)
years of Dennis’ previously suspended sentence. Tr.
42.
Dennis timely appealed his convictions, which
appeals were denied by the Virginia Court of Appeals
and the Virginia Supreme Court. Each federal
question referenced herein was raised in Dennis’
Petitions for Appeal to the Court of Appeals of
Virginia and the Virginia Supreme Court. Exh. C;
Exh. D. All constitutional rights violations by the

Petition for Certiorari

Page 6

courts of Virginia were dismissed on procedural
grounds. Exh. A; Exh. B. However, such
constitutional violations cannot be cured by any
procedural grounds that may occur in a state court
proceeding. Jackson v. Denno, 378 U.S. 368, 370 n.l,
84 S. Ct. 1774, 1777 (1964) (citing Fay v. Noia, 372
U.S. 391, 426-27, 83 S. Ct. 822, 842 (1963)).
This Petition for Writ of Certiorari is filed
seeking reversal of the decisions of the Circuit Court,
the Virginia Court of Appeals and the Virginia
Supreme Court.

B. Statement of Facts
In 2008 Dennis pled guilty to twenty (20)
counts of possessing child pornography, one (l)
count of carnal knowledge, one (l) count of computer
solicitation, and one (l) count of sexual assault. The
computer solicitation and sexual assault charges

Petition for Certiorari

Page 7

were entered a based upon a 17-year-old female
lying about her age being 21, and the sodomy was
consensual, but Dennis only pled on that because of
the child porn charges. Tr. 35.
The abduction and rape charges for which
Dennis was arrested on in June 2018 dismissed via
orders of nolle prossequi because the GPS worn by
Dennis proved he was not where the complainant
claimed that he was. Tr. 36. The sex trafficking
charges that were brought in Winchester were
dismissed in large measure because the
Commonwealth represented to the Circuit Court for
the City of Winchester:
In this case, as in many cases with
human trafficking, we do rely heavily
on the testimony of the human
trafficking victims. Those human
trafficking victims also happen to be in
most of the cases prostitutes.
Since the time that this was indicted
one of the individuals has been
arrested on drug-related charges. One
of them has moved to another state.
Petition for Certiorari

Page 8

Now, we are in contact with her and we
could bring her back. It would be at
significant cost to the Commonwealth.
But, most importantly, there is
information with this individual that
could have been used for impeachment
and we would have had to have dealt
with that in front of a jury.
Exh. 1 at p. 7-8.
Significantly, there was no proffer of facts
about Dennis in the Circuit Court for the City of
Winchester concerning the charges for which Alford
pleas were entered.
As to hearsay, at the probation violation
hearing, the Albemarle County Circuit Court
erroneously stated, “hearsay is always admissible in
a probation violation hearing. The Court of Appeals
has made that abundantly clear on more than one
occasion.” Tr. 12-13.
At the probation violation hearing the
Commonwealth presented hearsay testimony of one
Zachary Zwahl, a probation officer that admittedly
Petition for Certiorari

Page 9

had never met Dennis and had no personal
knowledge about his conduct. Tr. 8. Significantly,
the Commonwealth offered no reason as to why
someone with personal knowledge was not present.
An underlying reason why the testimony of Mr.
Zwahl should not have been admitted and Dennis’s
actual probation officer should have been made to
appear and testify was the actual nature of a single
interaction that Dennis had with the
seekingarrangements.com website. Had Dennis’s
actual probation officer testified, it would have been
made clear that shortly after Dennis was released
on probation in 2017, Dennis received an unsolicited
e-mail from the seekingarrangements.com website.
Dennis made a single visit to that website in order
to unsubscribe to that website. On that visit,
Dennis had no interaction with anyone. The
references to Dennis’s single interaction with that

Petition for Certiorari

Page 10

website and the gross mischaracterizations of that
interaction by the Trial Court and the Court of
Appeals underscore the manifest unjustness of
Dennis sentence in this case.
The referenced one-time visit
seekingarrangements.com is emblematic of a
facially unconstitutional probation condition that
forbade access to any social media website.
The Commonwealth further presented
testimony of one Teresa Hudson, a special agent
with the F.B.I. Tr. 11. Ms. Hudson alleged that she
had listened to telephone calls from Dennis.
Notably, Ms. Hudson did not produce or play the
actual recordings that she alleged that the F.B.I.
had. The Commonwealth offered not testimony
about why the tapes themselves were not played at
the hearing or the other party to the alleged
conversation did not testify at the hearing.

Petition for Certiorari

Page 11

*
i

In characterizing the phone conversation with
someone alleged to be one “K.P”, which conversation
apparently was never even transcribed, Hudson
stated:
He [Dennis] told her that he loved her,
that he would take care of her, at one
point, he, in one of the conversations he
asks if he could—if she would marry
him, or did she want to marry him, and
she responded yes, and as an aside he
was already married at that point. He
talked about providing cell phones to
her so that he could continue to
communicate with her, and he was
going to try and — he would provide
money for her to leave the other state,
and fly back to—to Virginia or fly back
east to—was close to where he was.
Hudson was then asked to speculate what “K.P.”
was thinking, which speculation should never been
allowed in evidence for reasons of both hearsay and
lack of personal knowledge on the part of Hudson:
Well, she thought he was in another
country. She thought he was—I—I
can’t remember if it was Indonesia or
Thailand. She thought he was in the
hospital with a brain tumor and was
Petition for Certiorari

Page 12

receiving medical treatment. She did
not realize he was in prison at that
time.
During sentencing, third party hearsay
testimony was also allowed over objection that
implied that Dennis had not been fully truthful with
his probation officer. Tr. 25-26.
The Albemarle County Circuit Court relied
upon the inadmissible evidence and
mischaracterizations of Dennis’ actions proffered by
the Commonwealth and commented “Well jail
doesn’t slow him down.” Tr. 34.
In sum, the Albemarle County Circuit Court
imposed a very harsh sentence of five years based
upon hearsay statements and statements referenced
hereinafter by the Commonwealth that were either
false or misleading. Tr. 42.

Petition for Certiorari

Page 13

V.

Argument

A. Discussion of Questions Presented
The Virginia Supreme Court erred by failing
to correct the Constitutional errors of this case and
denying Dennis’ appeal on procedural grounds.
An unconstitutional restraint cannot be cured
by any procedural grounds that may occur in a state
court proceeding. Denno, 378 U.S. at 370 n.l, 84 S.
Ct. at 1777 (citing Fay v. Noia, 372 U.S. at 426-27,
83 S. Ct. at 842.

1.

Does any Court have the authority to
extinguish a defendant’s due process rights
via the Fifth and Fourteenth Amendment by
allowing the prosecutor to proffer false
evidence?
The Fourteenth Amendment to the United

Petition for Certiorari

Page 14

States Constitution provides in pertinent part:
No State shall make or enforce any law
which shall abridge the privileges or
immunities of citizens of the United
States; nor shall any State deprive any
person of life, liberty, or property,
without due process of law; nor deny to
any person within its jurisdiction the
equal protection of the laws.
The right to due process conferred by the
Fourteenth Amendment to the United States
Constitution should require prosecutors to present
only purely factual evidence in order to ensure a fair
trial. A misrepresentation of facts within the case
brought to trial should be considered a violation of
the defendant’s right to due process. It should not be
the case that state courts, such as those of Virginia
in this case, allow prosecutors to proffer erroneous
evidence to be used against the defendant. A
prosecutor should not have to lie in order to get a
conviction.
In the case of Berger v. United States, the
Petition for Certiorari

Page 15

United States Supreme Court held that a
“Prosecutor’s duty is not only to use every legitimate
means to bring about a just conviction, but to refrain
from improper methods calculated to produce a
wrongful conviction.” 295 U.S. 78, 79 L.Ed. 1314, 55
S.Ct. 629 (1935).
Following the reasoning presented by the
Supreme Court in Berger the Commonwealth’s
Attorney is the representative of the sovereignty of
the Commonwealth of Virginia and had obligation to
govern impartially. Therefore, the interest of the
Commonwealth’s Attorney is not that he shall “win a
case,” but that justice shall be done. As the Court
eloquently stated, “As such, he is in a peculiar and
very definite sense the servant of the law, the two­
fold aim of which is that guilt shall not escape or
innocence suffer ... while he may strike hard blows,
he is not at liberty to strike foul ones. It is as much

Petition for Certiorari

Page 16

his duty to refrain from improper methods calculated
to produce a wrongful conviction as it is to use every
legitimate means to bring about a just one.” Id. 295
U.S. at 88.
Berger is binding and dispositive in this case.
In Berger, the Court noted prosecutorial behavior
that is strikingly similar to this case (emphasis
added):
That the United States prosecuting attorney
overstepped the bounds of that propriety and
fairness which should characterize the conduct
of such an officer in the prosecution of a
criminal offense is clearly shown by the record.
He was guilty of misstating the facts in his
cross-examination of witnesses! of putting into
the mouths of such witnesses things which
they had not said! of suggesting by his
questions that statements had been made to
him personally out of court, in respect of which
no proof was offered; of pretending to
understand that a witness had said something
which he had not said and persistently crossexamining the witness upon that basis! of
assuming prejudicial facts not in evidence! of
bullying and arguing with witnesses! and in
general, of conducting himself in a thoroughly
indecorous and improper manner. We
excerpts from the record illustrating some of
Petition for Certiorari

Page 17

the various points of the foregoing summary.
It is impossible, however, without reading the
testimony at some length, and thereby
obtaining a knowledge of the setting in which
the objectionable matter occurred, to
appreciate fully the extent of the misconduct.
The trial judge, it is true, sustained objections
to some of the questions, insinuations and
misstatements, and instructed the jury to
disregard them. But the situation was one
which called for stern rebuke and repressive
measures and, perhaps, if these were not
successful, for the granting of a mistrial. It
is impossible to say that the evil influence
upon the jury of these acts of misconduct was
removed by such mild judicial action as was
taken.
Id. 295 U.S. at 84-85. Just as in Berger, the
judgment against Dennis should be reversed.
Due process considerations as stated in cases
such as Berger trump procedural cases relied upon
by the Court of Appeals. The fundamental
unfairness of Dennis’s sentencing hearing simply
cannot be affirmed on procedural grounds (e.g.,
because Dennis’s prior counsel failed to object to the
horrible and highly prejudicial conduct of the
prosecuting attorney). The Prosecutor violated his
constitutional duty to refrain from improper methods

Petition for Certiorari

Page 18

calculated to produce a wrongful conviction.

A. The Prosecutor Made Materially False
Statements to the Court
In final arguments, the Prosecutor made a
particularly damaging and materially false or highly
misleading statements to the Albemarle County
Circuit Court. The following proffer took place
(emphasis added):
MS. LOWE: So Judge, Mr. Dennis was
convicted in Albemarle County for
sodomy. I believe its twenty-five (25)
counts of child pornography, carnal
knowledge, use of computer—use of
computer to commit certain sex
offenses with a minor, and possess
obscene material with a minor. He has
a twenty-one (21) and one hundred and
eighty (180)—one hundred thirty eight
(138) month suspended sentence with
four years of supervised probation
upon release. Extremely important
were the conditions upon which he was
put on probation, specifically good
behavior, specifically conditions with
respect to his contact with women.
Petition for Certiorari

Page 19

with internet websites and we have
him now back in front of the Court for
convictions of either frequenting or
sustaining a body [sic] house. They’re
misdemeanors, and they’ll argued by
counsel that these are misdemeanors,
but important, and what I think the
thrust of our sentencing hearing was,
they’re part of a much bigger problem
on the part of Mr. Dennis. First of all,
we clear evidence that he continues to
make contact with young women
whether nineteen (19) versus
seventeen (17). out ofstate. He
continues to be involved in a human
trafficking situation because he has
made an agreement with the
Commonwealth in Winchester in—by
which they reduced human trafficking
charges to body house charges in an
effort to attempt to crack down on the
bigger scheme or the bigger—
conspiracy in which he was involved in
in volving h uman trafficking and he
didn’t even cooperate with that
appropriately. We have evidence from
his own mouth where he was heard by
an agent talking with young females
out of state, trying to convince them to
come to where he is. which is so highly
dangerous and concerning given the
facts in the initial probation report
that relate to the facts of the case in
Albemarle County, where he had made
contact with a seventeen (17) year old
female that he met online using the
Petition for Certiorari

Page 20

exact same website that he continued
to use after he was released, nine days
after release in Winchester, continued
to use the same website there that he
used to get the victim in Albemarle
County, and he then back in 2008 had
met her, sent her a plane ticket to
travel to her, and then committed the
offenses against her. And we have him
doing the same kind of conduct now
based on the investigation in
Winchester, where he’s continuing to
contact now a nineteen (19) year old,
out of state young woman, trying to get
her to come to him with, again, lies.
That’s part of an overall case that they
then make the deal in Winchester over,
and then we clearly then see him
making continued manipulations and
false cooperation or false statements
there. His dangerousness level is still
extremely high. He’s a sex offenderconvicted sex offender with multiple
child porn—
THE COURT: Well jail doesn’t slow
him down.
MS. LOWE: Not a bit. A child porn,
and he's still doinsit.
THE COURT: Rieht.
MS. LOWE: And so I—that so—so I—I
put on a bigger case than just the
convictions themselves for that reason,

Petition for Certiorari

Page 21

so the Court can see understanding
that Winchester convicted him of
something of a sexual nature trying to
stop a bigger problem, I suppose, but
his actual dangerousness, and what
we’re facing here is a man in
Albemarle County, who lured a young
person out of state to Albemarle to
offend against her, doing the same kind
of behavior and even using the same
website nine days after his release.
Judge, he’s a man who has a
significant dangerous risk—
dangerousness risk to this community.
He has a very significant suspended
sentence—twenty-one (21) years and
one hundred thirty-eight (138) months
suspended, and I’d ask the Court to
consider pulling a significant period of
that—at least ten years of that to
protect this community and others.
Thank you ...
Briefly stated:
1.

It is facially apparent from Dennis’s
sentencing order that there were no
restrictions on his contacting women.
The prosecuting attorney simply lied
by saying otherwise. In Dennis’s
case the judge believed the

Petition for Certiorari

Page 22

prosecutor’s lies about such
restrictions and used that belief in
sentencing Dennis.
2.

The telephone calls with young
woman that Dennis talked to that
was alleged to be nineteen year old
were fully legal and did not violate
his probation in any manner
whatsoever. Lies of the prosecuting
attorney to the contrary should be
grounds for reversal by this Court.

3.

Dennis has never been convicted of
human trafficking. The lies of the
prosecuting attorney to the contrary
were highly violative of Dennis due
process rights. See, e.g., Martin v.
Ohio, 480 U.S. 228, 230, 107 S. Ct.
1098, 1100 (1987). To reiterate,

Petition for Certiorari

Page 23

Dennis was never convicted of being
involved in human trafficking and
certainly was not “continuing” to be
involved in any such trafficking.
Again, as a matter of due process, a
sentence invoked based upon lies
should be reversed.
4.

There was nothing illegal or violative
of Dennis’s probation to communicate
with the young woman alleged to be
nineteen years old. Lies to the
contrary are also grounds for
reversal.

5.

There was no evidence in this case
that Dennis had any involvement
with child porn after his original
charges in 2008. The prosecuting
lied again when she told the judge

Petition for Certiorari

Page 24

that Dennis was still “doing it”. It is
indeed alarming that the Judge that
sentenced Dennis did not recognize
this lie and simply affirmed “Right”
in response to the prosecutor’s lies.
6.

The prosecutor lied when she said
that Dennis “lured” a young person
to Albemarle County “to offend
against her”. That is simply not
what happened. Instead, Dennis
invited a young woman that he
believed to be of age to visit him.
That young woman came to
Albemarle County of her own free
will and never told Dennis the truth
about her age. There was never any
evidence that Dennis intended “to
offend” against the young woman.

Petition for Certiorari

Page 25

Lies should be grounds for reversal.
The Court of Appeals simply ignored these
outright lies of the prosecuting attorney and
pretended that they were not important. The
manifestly unjust response of the Court of Appeals
concerning these lies was to state that relief would be
denied as a matter of law because Dennis’s former
attorney failed to object at the sentencing hearing
and cited Russo v. Commonwealth, 207 Va. 251, 257
(1966) as authority.
Dennis avers that Russo should be overruled
at least to the extent that it has been used by the
Court of Appeals in this case to justify extensive
lying by a prosecuting attorney. The integrity of the
courts of Virginia should require a higher standard
on the part of members of the bar in general and
prosecuting attorneys in particular.

Petition for Certiorari

Page 26

B. The materially false statement, “Extremely
important were the conditions upon which he
was put on probation, specifically good
behavior, specifically conditions with respect
to bis contact with women”was highly
prejudicial
Dennis had no conditions with respect to his
contact with women beyond being ordered not to
have contact with the “victim” that resulted in
Dennis’ sentences from 2008. Exh. 2. Dennis’
Sentencing Order is completely silent as to
“conditions with respect to bis contact with women”.
The statement of the Prosecutor was not
supported by any testimony or evidence and was
simply false.
Dennis’ unduly harsh probation violation
sentence was predicated in part upon this false
statement and should be reversed and remanded for

Petition for Certiorari

Page 27

that reason alone.

C.

The highly misleading statement that
Dennis continues “to make contact with
voune women whether nineteen (19) versus
seventeen (17). out ofstaid' was highly
prejudicial
Testimony at the hearing did not evidence an

age of the person that Dennis was alleged (solely via
hearsay testimony) to have contacted from jail.
Instead, Agent Hudson merely speculated (emphasis
added), “she -map-have been nineteen”. Tr. 15. Such
speculation is not evidence and the age of the young
woman was not proved. Consequently, representing
to the Albemarle County Circuit Court the age of the
person was improper and prejudicial.
More significantly, the repeated reference to
the age of the “victim” from the original cases is

Petition for Certiorari

Page 28

highly misleading as well. While it is true that the
“victim” from that case was seventeen at the time of
her trip to Charlottesville. In Dennis’ 2008 plea
hearing, the Commonwealth admitted (emphasis
added) “the female fvirtim] specifically had
misrepresented her agS\ Exh. 3 10. Dennis’ trial
attorney made an uncontroverted clarification of this
misrepresentation of the “victim” by stating
(emphasis added):
QUAGLINA [DEFENSE ATTORNEY]:
“Ms. Fafard had misrepresented
information about her age, to be more
specific in her profile she identifies
herselfas a twenty-one (21) vear-old.
Let me be clear that there was no
evidence or information in this case to
suggest that Mr. Dennis had any other
information about this person except
what he learned on this website, that
there was no information to suggest
that he knew that this young ladv was
not twenty-one (21). She looks like
somebody who is in her late teens,
early twenties. She doesn’t look like
she’s, you know, thirteen (13) or twelve
(12). She identifies herself as a high
school graduate, she says that she’s a
Petition for Certiorari

Page 29

waitress, and she provides other
information in here. One of the things
that she talks about are the
circumstances under which she would
be willing to meet somebody. She says
that she expects, and then it says open,
amount negotiable.... I’ll represent to
the Court that I listened to a 911 call
that the young lady placed when she
was still in Mr. Dennis’ apartment. In
that 911 call she initially alleges that
Mr. Dennis came to Connecticut and
brought her here, and we know that
that’s not true. He provided money for
her to obtain a ticket and get herself on
the plane and get herself to Virginia,
and then he picked her up at the
airport. I don’t want to belabor the
point Ms. Lunsford has made, but in
our view this was case in which there
were substantial issues regarding this
person’s credibility.”
Exh. 3 25-26.
The proffers of the Prosecutor that led the
Albemarle County Circuit Court to believe that
Dennis knew that the young woman that visited him
from Connecticut was underage was highly
misleading and highly prejudicial.
Dennis’ unduly harsh probation violation
Petition for Certiorari

Page 30

sentence was predicated in part upon these highly
misleading statements and should be reversed and
remanded for those reasons as well.

D. The materially false statement, “He continues
to be involved in a human traffickinpr
situation” was highly prejudicial
Dennis has never been convicted of a human
trafficking charge and false factual proffers to the
contrary had no place in the probation violation
hearing.
To be clear, the primary reasons that the
Commonwealth did not pursue the human trafficking
charges in the Winchester Circuit Court was because
the Commonwealth did not believe that it could
prove the charges. The Commonwealth admitted
that, had the charges been pursued, the testimony
would have been from witnesses that would have

Petition for Certiorari

Page 31

been highly impeachable. Exh. 1 at p. 7-8.
Equally important is that the alleged
telephone call that Dennis had with K.P. cannot
legally be characterized by human trafficking. By
definition, human trafficking requires that there be
some intent to “receive money or other valuable thing
or to assist another in receiving money or other
valuable thing from the earnings of a person from
prostitution or unlawful sexual intercourse”. Va.
Code § 18.2-357.1. There was no evidence that the
interaction with K.P. involved any “money or other
valuable thing from the earnings of a person from
prostitution or unlawful sexual intercourse”.
I

The Prosecutor knew that making false
representations about Dennis being involved in
human trafficking would be highly prejudicial and
result in a harsher sentence at his probation
violation hearing.

Petition for Certiorari

Page 32

The fact is that Dennis has never been
convicted of human trafficking and there was no
evidence of any involvement in human trafficking,
much less “continued involvement in human
trafficking”.
Dennis’ unduly harsh probation violation
sentence was predicated in part upon these
materially false statements and should be reversed
and remanded for those reasons as well.

E.

The highly misleading statement, “he was
heard by an agent talking with voune- females
out of state, trying to convince them to come
to where he is. which is so highly dangerous
and concerning given the facts in the initial
probation report that relate to the facts of the
case in Albemarle County, where he had
made contact with a seventeen (17) year old

Petition for Certiorari

Page 33

female that he met online” was highly
prejudicial
As an initial matter, there was no evidence at
the probation violation hearing of Dennis talking
with anyone other than K.P. So, to state that Dennis
was talking with the plural “young females” was
highly misleading and not proved at trial. -Moreover,
even if the testimony about K.P was admissible (a
premise that Dennis strongly contests), there was
nothing in that conversation that was illegal. The
Commonwealth simply should not be attempting to
incarcerate people, or extend their incarceration,
unless they have acted illegally.
In addition, the repeated reference to the
“victim” in the 2008 cases is highly misleading
because the uncontroverted factual proffers from
that case, supra, clearly show that Dennis believed
her to be twenty-one years old and his brief

Petition for Certiorari

Page 34

relationship with her lawful.
Dennis’ unduly harsh probation violation
sentence was predicated in part upon these highly
misleading statements and should be reversed and
remanded for those reasons as well.

F. The highly misleading statement, “And we
have him doing the same kind of conduct now
based on the investigation in Winchester,
where he’s continuing to contact now a
nineteen (19) year old, out of state young
woman, trying to get her to come to him with,
again, lies” was highly prejudicial
As stated, supra, there was no evidence,
beyond rank speculation, that K.P. was nineteen
years old.
More importantly, since K.P. was never
alleged to be a minor, even if the contents of the

Petition for Certiorari

Page 35

alleged phone call was admissible (a premise
strongly disputed by Dennis), there was nothing
illegal about the phone call. Because there was
nothing illegal about the phone call, it had no
relevance to any probation violation or any sentence
for a probation violation.
Dennis’ unduly harsh probation violation
sentence was predicated in part upon this highly
misleading statement and should be reversed and
remanded for those reasons as well.
£
G. The false statement that Dennis was “still
doing” child porn was highly prejudicial

X

The Prosecutor made a highly prejudicial

*

S.

statement that Dennis was “still doing” child porn.
Tr. 34. This statement was contrary to any evidence
presented at the probation violation hearing. It is
particularly egregious that the Court indicated

Petition for Certiorari

Page 36

agreement with that statement by stating “Right” in
response. Tr. 34.
Dennis’ unduly harsh probation violation
sentence was predicated in part upon this materially
false statement and should be reversed and
remanded for those reasons as well.

H. The highly misleading statement that Dennis
“lured a young person out of state to
Albemarle to offend against her: doing the
same kind of behavior and even using the
same website nine days after his release” was
highly prejudicial
There was no evidence in the underlying case
that Dennis had any intention to “offend against” the
female that misrepresented her age in the 2008
cases. Dennis had no reason to believe that she was
under the age of 18 or that her coming to see him

Petition for Certiorari

Page 37

from Connecticut would in be an offense in any
manner whatsoever.
The Commonwealth should have clearly
communicated the facts of the 2008 case to the
Albemarle County Circuit Court and should not have
made misleading statements implying that Dennis
ever attempted to lure underage girls to meet him in
any manner whatsoever.
Dennis’ unduly harsh probation violation
sentence was predicated in part upon this highly
misleading statement and should be reversed and
remanded for those reasons as well.
To reiterate, the denial of relief by the Court of
Appeals on procedural grounds is manifestly unjust.
The Prosecutor was allowed to make
prejudicial and outright erroneous statements at the
cost of Dennis’ Constitutional right to due process
secured by the Fourth and Fifteenth Amendments.

Petition for Certiorari

Page 38

No state court should have the authority to allow
prosecutorial misconduct to take place in this form. A
miscarriage of justice has occurred in this case and
more than justifies a reversal of the original
judgement to obtain the ends of justice even though
Dennis’s trial attorney failed to properly object at his
sentencing hearing.

2.

Does a Virginia Court have the authority to
violate the Confrontation Clause of the
Constitution by allowing any hearsay
testimony?
At the probation violation hearing, the

Albemarle County Circuit Court erroneously stated
“hearsay is always admissible in a probation
violation hearing. The Court of Appeals has made
that abundantly clear on more than one occasion.”
Tr. 12-13.

Petition for Certiorari

Page 39

That statement concerning hearsay testimony
is erroneous as a matter of law. The Virginia
Supreme Court has stated (emphasis added):
Because parole revocation proceedings
occur after a criminal prosecution has
ended in a conviction, a parolee is not
entitled to the “full panoply” of
constitutional rights to which he was
entitled at trial. Morrissey v.
Brewer 408 U.S. 471, 480, 92 S. Ct.
2593, 33 L. Ed. 2d 484 (1972).
Following Morrissey, in Gagnon v.
Scarpelli, 411 U.S. 778, 782, 93 S. Ct.
1756, 36 L. Ed. 2d 656 (1973), the
Supreme Court of the United States
held that the same constitutional
principles applied in probation
revocation hearings. Although
the Sixth Amendment right of
confrontation applies only in criminal
trials, a more limited right of
confrontation was included in the Due
Process Clause of the Fourteenth
Amendment, applicable to parole and
probation revocation proceedings. The
Supreme Court expressed
the Fourteenth Amendment’s
“minimum requirements of due
process” as providing:
(a) written notice of the claimed
violations of [probation]; (b) disclosure
to the [probationer] of evidence against
him; (c) opportunity to be heard in
Petition for Certiorari

Page 40

person and to present witnesses and
documentary evidence; (d) the right to
confront and cross-examine adverse
witnesses (unless the hearing officer
specifically finds good cause for not
allowing confrontation); (e) a “neutral
and detached” hearing body such as a
traditional parole board, members of
which need not be judicial officers or
lawyers! and (f) a written statement by
the factfinders as to the evidence relied
on and reasons for revoking
[probation].
Morrissey, 408 U.S. at 489 (emphasis
added).
Henderson v. Commonwealth, 285 Va. 318, 325-26,
736 S.E.2d 901, 905 (2013).
Hearsay that is testimonial in nature is
subject to the limited confrontation right provided by
the Fourteenth Amendment. Such hearsay may be
admitted only when “the hearing officer specifically
finds good cause for not allowing
confrontation.” Henderson, 285 Va. at 326, 736
S.E.2d at 905 (citing, Morrissey, 408 U.S. at 489, 92
S. Ct. at 2604).

Petition for Certiorari

Page 41

Two tests have emerged for
determining whether the denial of the
right to confrontation in that context
will comport with constitutional due
process. The first, the “reliability test,”
permits admission of testimonial
hearsay in revocation proceedings if it
possesses substantial guarantees of
trustworthiness. See Crawford v.
Jackson, 323 F.3d 123, 130, 355 U.S.
App. D.C, 282 (D.C. Cir. 2003). Some
guarantees include (l) detailed police
reports (as opposed to mere summaries
of such reports by probation officers),
(2) affidavits or other hearsay given
under oath, (3) statements by the
probationer that directly or
circumstantially corroborate the
accusations, (4) corroboration of
accusers’ hearsay by third parties or
physical evidence, (5) statements that
fall within a well-established exception
to the hearsay rule, (6) evidence of
substantial similarities between past
offenses and the new accusations that
bolsters the accuser’s credibility, and
(7) a probationer’s failure to offer
contradictory evidence. Id.; United
States v. Jones, 299 F.3d 103, 113 (2d
Cir. 2002); United States v. Kelley, 446
F.3d 688, 692 (7th Cir. 2006); United
States v. Lloyd, 566 F.3d 341, 345, 51
V.I. 1244 (3d Cir. 2009); Curtis v.
Chester, 626 F.3d 540, 547 (lOth Cir.
2010). Evidence which alone would not
be reliable would be bare out-of-court
Petition for Certiorari

Page 42

statements reflecting an adversarial
relationship with the accused or
statements contained within multiple
layers of hearsay. Lloyd, 566 F.3d at
345.
The second test, the “balancing test,”
requires the court to weigh the
interests of the defendant in crossexamining his accusers against the
interests of the prosecution in denying
confrontation. Id. at 344-45.
Henderson v. Commonwealth, 285 Va. 318, 327-28,
736 S.E.2d 901, 906 (2013) (emphasis added).
During the Zachary Zwahl’s (“Zwahl”)
testimony in response to the prosecutor’s questions,
on page 25 of the probation violation hearing
transcripts, the following testimony was significant:
A' Detective Ivens from Winchester
Police — police department was
communicating with his supervising of
- the defendants supervising officer
with Winchester P.N.P., Michelle
Getts. Detective Ivens had spoken with
— with a female that the defendant was
taking to a jewelry store.
[DEFENSE ATTORNEY]: Yeah ... I
understand and I don’t mean to keep
objecting, but I would object on
confrontation clause at this time. I
Petition for Certiorari

Page 43

understand sometimes the detective,
they could say for reasons of
confrontations we don’t have the ability
to confront this witness, and this is not
just coming from a detective, its
coming from a third party hearsay. It
has to show why that persons not here
and good cause for that, and we have
no right, it sounds like this is for
testimonial purposes that it was
designed, since it was an investigator
talking to this individual which would
all meet within the confrontation
clause.
In addition, the testimony of Ms. Hudson
regarding the allegedly recorded telephone
conversation should never have been admitted
either. The following colloquy took place (emphasis
added):
Q ---in prison—prison. And so, my next
question, did you listen to phone calls
that were made by Mr. Dennis from
prison?
A Yes.
Q And with another person in another
state?
A Yes.
MR. SHAPIRO: And Your Honor, I
would just after that, I told Ms. Lowe I
probably would object to this regarding
Petition for Certiorari

Page 44

number one, I understand it mean to
say this, Mr. Dennis’s statements on
there, but we’re not trying that case
today. The allegation—just—r—I—Ms.
Lowe, we admit the violations that are
alleged—the two misdemeanor
convictions. There’s no question about
that this day. I understand its part of
the proffer, but regarding the actual
statements that remain that Mr.
Dennis made on these alleged recorded
calls really doesn’t make a difference.
It’s not relevant to this hearing itself,
today. And I don’t believe it’s
admissible.
Q Judge—
THE COURT: Well what if—hearsay is
always admissible at a probation
revocation hearing. The Court of
Appeals made that abundantly clear on
more than one occasion. Go ahead, Ms.
Lowe, what were you going to say?
Q So, all I was going to say is, Judge,
important to this case is, he was
convicted of misdemeanors and I am
sure that question at sentencing will be
how much violation should
misdemeanors contain. And because
those were misdemeanors as a result of
an agreement, wherein he was to
proffer, and he has proffered noncooperatively, that is an important
fact.
THE COURT: Well his proffer is as I
understand it, Special Agent can just
(unintelligible) him the most and he
Petition for Certiorari

Page 45

just proffered---I—things that weren’t
true.
Q Right, and the final piece I think,
and the relevance to the piece
regarding the manipulation of the
other person from prison and it may be
more appropriate at sentencing. I had
her on and I wanted to ask her now,
simply was, some of the information
that she received and heard from his
own voice is in for—conversations with
a person in a—in a trafficking sense,
and I think that is relevant, because
the Courts [sic] going to have
determine how significant this
violation is, and what his sentence
should be, and for that reason I offer
that. It’s his statement so it’s not
hearsay and that’s why its relevant
because you’re going to look at it at
sentencing issues. These are
misdemeanors for bawdy place keeping
or frequenting, but there’s certainly
conduct underlying that---those
convictions that her hearing these
statements made—
THE COURT: Go ahead.
Q —by him while still in jail shows his
dangerousness.
THE COURT: Go ahead.
Q Thank you.
THE COURT: m overrule the
objection.
The Albemarle County Circuit Court then

Petition for Certiorari

Page 46

allowed Agent Hudson to testify not about the actual
statements made by Dennis, but rather her own
characterizations of telephone conversations between
Dennis and K.P. Such characterizations, without the
recorded conversations themselves or transcripts of
those conversations, do not have the proper indicia of
reliability required to pass constitutional muster. In
addition, there were no actual statements of Dennis
that were cited by Agent Hudson, only inadmissible
characterizations of those statements.
More egregiously, Agent Hudson was allowed
to “testify” about what K.P. thought. Any
“testimony’ by Agent Hudson about what K.P.
thought was pure speculation and any statements
allegedly made by K.P. should not have been allowed
without her actual testimony. There was no reason
given as to why K.P. was not called to testify about
the calls herself. Although the testimony about the

Petition for Certiorari

Page 47

telephone calls did not evidence any illegal action on
the part of Dennis, the “testimony” turned out to be
highly prejudicial because of the manner in which
the Commonwealth relied on that “testimony” was
critical to the unduly harsh sentence that Dennis
received.
Dennis was denied the ability to confront key
witnesses pursuant to the confrontation clause. The
Court made a serious error by allowing that
testimony without any regard for any determination
of good cause as required by law. Neither the
reliability test nor the balancing test were applied by
the Albemarle County Circuit Court. Indeed, had
these tests been applied, the testimony would not
have been allowed. There is simply no reason of
record why Detective Ivens, Michelle Getts, and K.P.
were not called and Dennis was not allowed to
confront them.

Petition for Certiorari

Page 48

The legally erroneous rule applied at the
probation violation hearing that “hearsay is always
admissible in a probation violation hearing” (Tr. 1213) is constitutionally erroneous and the judgment of
the Albemarle County Circuit Court should be
reversed.
The Virginia Supreme Court and Court of
Appeals erred in viewing the aforementioned
testimony properly admitted. There stated “indicia
of reliability” test is not a test approved by this Court
and cannot trump the aforementioned requirements
of Henderson. There was not stated cause
whatsoever, much less good cause shown, why actual
witnesses with personal knowledge did not appear at
Dennis’s trial.
Accordingly, the Virginia Supreme Court and
Court of Appeals denial of relief should be reversed.

Petition for Certiorari

Page 49

3.

Can a Virginia Court subject a defendant to
cruel and unusual punishment based on an
erroneous proffer by the prosecution?
The Eighth Amendment, in only three words,

imposes the constitutional limitation upon
punishments^ they cannot be “cruel and unusual.”
The Court has interpreted these words “in a flexible
and dynamic manner,” Gregg v. Georgia, 428 U.S.
153, 171 (1976) (joint opinion), and has extended the
Amendment’s reach beyond the barbarous physical
punishments at issue in the Court’s earliest cases.
See Wilkerson v. Utah, 99 U.S. 130 (1879); In re
Kemmler, 136 U.S. 436 (1890). Today the Eighth
Amendment prohibits punishments which, although
not physically barbarous, “involve the unnecessary
and wanton infliction of pain,” Gregg, supra, 428
U.S. at 173, or are grossly disproportionate to the
severity of the crime, Coker v. Georgia, 433 U.S. 584,

Petition for Certiorari

Page 50

592 (1977) (plurality opinion); Weems v. United
States, 217 U.S. 349, 30 S. Ct. 544 (1910).
Among “unnecessary and wanton” inflictions
of pain are those that are “totally without penological
justification.” Gregg, 428 U.S. at 183; Estelle v.
Gamble, 429 U.S. 97, 103 (1976). Rhodes v.
Chapman, 452 U.S. 337, 345-46, 101 S. Ct. 2392,
2398-99 (1981).
The Eighth Amendment to the United States
Constitution prohibits “excessive” sanctions. U.S.
Const., Amend. VIII; Atkins v. Virginia, 536 U.S.
304, 311, 122 S. Ct. 2242, 2246, 153 L. Ed. 2d 335,
343 (2002). The Eighth Amendment is applicable to
Virginia through operation of the Fourteenth
Amendment to the United States Constitution.
Estelle, 429 U.S. at 1015 Edwards v. Whitlock, 57 Va.
Cir. 337 (2002).

Petition for Certiorari

Page 51

In Weems, 217 U.S. at 349, the Supreme Court
held that a punishment of 12 years jailed in irons at
hard and painful labor for the crime of falsifying
records was excessive. The Court explained, “that it
is a precept of justice that punishment for crime
should be graduated and proportioned to the
offense.” Id. at 367. Thus, even though
“imprisonment for ninety days is not, in the abstract,
a punishment which is either cruel or unusual,” it
may not be imposed as a penalty for! ‘“the status’ of
narcotic addiction,” Robinson v. California, 370 U.S.
660, 666, 8 L.Ed.2d 758, 82 S.Ct. 1417 (1962),
because such a sanction would be excessive. As
Justice Stewart explained in Robinson'■ “Even one
day in prison would be a cruel and unusual
punishment for the ‘crime’ of having a common cold.”
Id. at 667.
Dennis plead no contest on January 15, 2019

Petition for Certiorari

Page 52

to two charges of misdemeanor, keeping a bawdy
place, pursuant to 18.2-347. The Sentencing Order
from the Winchester case states: “You will receive a
sentence of twelve (12) months incarceration, which
will be suspended on each Count. Receive twelve (12)
months incarceration on both Counts” (Winchester
2019 T.T. page 12). This is the original Sentencing
Order that set the foundation for the probation
violation conviction. The Sentencing Order for the
probation violation states: “I’ll impose five years. I’m
going to extend his probation... I’m going to extend
his MED to 8-1-2025.” The Sentencing terms
between the two hearings are grossly
disproportionate, constituting a violation of Dennis’
eighth amendment rights. Allowing the sentencing
order for a probation violation to be 5 times the
duration of the original is unnecessary, cruel and
unusual. Imposing a sentence grossly

Petition for Certiorari

Page 53

disproportionate to the crime is a direct violation of
Dennis’ Eighth Amendment rights. As a result, the
Sentencing Order for Dennis’ probation violation
should be declared void.

4.

Does a Virginia Court have the authority to
extinguish a defendant’s post commitment
First Amendment Rights?
The Commonwealth argued in court that

Dennis being on the seekingarrangements website
was a violation of his probation! however this is a
violation of Dennis’ First Amendment rights. The
aforementioned provision of the probation is
unconstitutional and should not stand as a basis for
a probation violation. Such overly broad restrictions
on access to “computers, electronics, smart phones, or
social media” was recently found to be violative the
First Amendment and, therefore, unconstitutional.

Petition for Certiorari

Page 54

Packingham v. North Carolina, 137 S.,Ct. 1730, 1738
(2017) (holding “[i]t is well established that, as a
general rule, the Government “may not suppress
lawful speech as the means to suppress unlawful
speech”). Yet, that is exactly what Dennis’
Sentencing Order from 2008 purports to do. The
Sentencing Order purports to completely bar Dennis
from ever using the Internet outside of work
applications or ever using any social media website.
Exh. 2.
Packingham is binding authority that applies
here (8-0 decision). Packingham focused on First
Amendment issues - applied to the states through
the due process clause of the Fourteenth
Amendment.
A fundamental principle of the First
Amendment is that all persons have access to places
where they can speak and listen, and then, after

Petition for Certiorari

Page 55

reflection, speak and listen once more. Packingham,
137 S. Ct. at 1735. The United States Supreme
Court has sought to protect the right to speak in
this spatial context. Id. A basic rule, for example, is
that a street or a park is a quintessential forum for
the exercise of First Amendment rights. Id.
(citing, Ward v. Rock Against Racism, 491 U. S. 781,
796, 109 S. Ct. 2746, 105 L. Ed. 2d 661 (1989)). Even
now, these places are still essential venues for public
gatherings to celebrate some views, to protest others,
or simply to learn and inquire. Packingham, 137 S.
Ct. at 1735.
In sum, to foreclose access to the Internet
altogether is to prevent the user from engaging in
the legitimate exercise of First Amendment rights.
Packingham, 137 S. Ct. at 1737. The Packingham
Court found it unsettling to suggest that only even
persons who have completed their sentences could

Petition for Certiorari

Page 56

use a limited set of websites. Id. Even convicted
criminals—and in some instances especially
convicted criminals—might receive legitimate
benefits from these means for access to the world of
ideas, in particular if they seek to reform and to
pursue lawful and rewarding lives.

Id.

It is well established that, as a general rule,
the Government “may not suppress lawful speech as
the means to suppress unlawful speech.”
Packingham, 137 S. Ct. at 1738 (citing, Ashcroft v.
Free Speech Coal., 535 U.S. 234, 255, 122 S. Ct.
1389, 1404 (2002)).
The Sentencing Order violates Dennis’ First
Amendment rights by suppressing his lawful speech
and should not have been considered as a factor in
sentencing Dennis.
The Court of Appeals relied upon rulings that
have never been adopted by this Court that are

Petition for Certiorari

Page 57

clearly contrary to Packingham. See, e.g., Fazili v.
Commonwealth, 71 Va. App. 239, 251 (2019). To the
extent that cases like Fazili are violative of the
doctrines of Packingham, such cases should be
reversed.
The statute invalidated in Packingham
applied to all convicted sex offenders including those
that remained on probation. Had the United States
Supreme Court believed that an exception existed for
sex offenders still on probation, it would have said so.
It did not.
Instead, Packingham ruled the North Carolina
statute unconstitutional and inferior courts, such as
the Virginia Court of Appeals have no authority to
eviscerate its plain holdings.
Because the ruling concerning the
unconstitutional probation provision was and is

Petition for Certiorari

Page 58

/

manifestly unjust, Rule 5^25 should be invoked and
relief granted to Dennis.

VI.

Overall Conclusion
For all of the reasons stated herein, Dennis’

Petition for Certiorari should be granted and his
convictions vacated.
Dated: April 1, 2021
by

James Dennis, pro se

Petition for Certiorari

Page 59

